<html>
<title> - FAA AND Y2K: WILL AIR TRAVEL BE STOPPED OR SIGNIFICANTLY DELAYED ON JANUARY 1ST AND BEYOND?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
  FAA AND Y2K: WILL AIR TRAVEL BE STOPPED OR SIGNIFICANTLY DELAYED ON 
                        JANUARY 1ST AND BEYOND?

=======================================================================

                             JOINT HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                                and the

                       SUBCOMMITTEE ON TECHNOLOGY

                                 of the

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 1999

                               __________

                     Committee on Government Reform

                           Serial No. 106-53

                          Committee on Science

                           Serial No. 106-51

                               __________

   Printed for the use of the Committee on Government Reform and the 
                          Committee on Science


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
61-204 CC                   WASHINGTON : 1999




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                  Matt Ryan, Professional Staff Member
                          Chip Ahlswede, Clerk
                    Trey Henderson, Minority Counsel


                          COMMITTEE ON SCIENCE

       HON. F. JAMES SENSENBRENNER, Jr., (R-Wisconsin), Chairman
SHERWOOD L. BOEHLERT, New York       RALPH M. HALL, Texas, RMM**
LAMAR SMITH, Texas                   BART GORDON, Tennessee
CONSTANCE A. MORELLA, Maryland       JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            JAMES A. BARCIA, Michigan
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
JOE BARTON, Texas                    LYNN C. WOOLSEY, California
KEN CALVERT, California              LYNN N. RIVERS, Michigan
NICK SMITH, Michigan                 ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         MICHAEL F. DOYLE, Pennsylvania
VERNON J. EHLERS, Michigan*          SHEILA JACKSON-LEE, Texas
DAVE WELDON, Florida                 DEBBIE STABENOW, Michigan
GIL GUTKNECHT, Minnesota             BOB ETHERIDGE, North Carolina
THOMAS W. EWING, Illinois            NICK LAMPSON, Texas
CHRIS CANNON, Utah                   JOHN B. LARSON, Connecticut
KEVIN BRADY, Texas                   MARK UDALL, Colorado
MERRILL COOK, Utah                   DAVID WU, Oregon
GEORGE R. NETHERCUTT, Jr.,           ANTHONY D. WEINER, New York
    Washington                       MICHAEL E. CAPUANO, Massachusetts
FRANK D. LUCAS, Oklahoma             BRIAN BAIRD, Washington
MARK GREEN, Wisconsin                JOSEPH M. HOEFFEL, Pennsylvania
STEVEN T. KUYKENDALL, California     DENNIS MOORE, Kansas
GARY G. MILLER, California           VACANCY
JUDY BIGGERT, Illinois
MARSHALL ``MARK'' SANFORD, South 
    Carolina
JACK METCALF, Washington


                       Subcommittee on Technology

               CONSTANCE A. MORELLA, Maryland, Chairwoman
CURT WELDON, Pennsylvania            JAMES A. BARCIA, Michigan**
ROSCOE G. BARTLETT, Maryland         LYNN N. RIVERS, Michigan
GIL GUTKNECHT, Minnesota*            DEBBIE STABENOW, Michigan
THOMAS W. EWING, Illinois            MARK UDALL, Colorado
CHRIS CANNON, Utah                   DAVID WU, Oregon
KEVIN BRADY, Texas                   ANTHONY D. WEINER, New York
MERRILL COOK, Utah                   MICHAEL E. CAPUANO, Massachusetts
MARK GREEN, Wisconsin                BART GORDON, Tennessee
STEVEN T. KUYKENDALL, California     BRIAN BAIRD, Washington
GARY G. MILLER, California

                               Ex Officio

F. JAMES SENSENBRENNER, Jr.,         RALPH M. HALL, Texas+
    Wisconsin+




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 9, 1999................................     1
Statement of:
    Garvey, Jane, Administrator, Federal Aviation Administration.    58
    Mead, Ken, Inspector General, U.S. Department of 
      Transportation.............................................    38
    Willemssen, Joel, Director, Civil Agencies Information 
      Systems, Accounting and Information Management Division, 
      U.S. General Accounting Office.............................    12
Letters, statements, etc., submitted for the record by:
    Garvey, Jane, Administrator, Federal Aviation Administration:
        FAA project plan.........................................    77
        Prepared statement of....................................    61
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Mead, Ken, Inspector General, U.S. Department of 
      Transportation, prepared statement of......................    41
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................     8
    Willemssen, Joel, Director, Civil Agencies Information 
      Systems, Accounting and Information Management Division, 
      U.S. General Accounting Office, prepared statement of......    15


  FAA AND Y2K: WILL AIR TRAVEL BE STOPPED OR SIGNIFICANTLY DELAYED ON 
                        JANUARY 1ST AND BEYOND?

                              ----------                              


                      THURSDAY, SEPTEMBER 9, 1999

        House of Representatives, Committee on Government 
            Reform, Subcommittee on Government Management, 
            Information, and Technology, joint with the 
            Committee on Science, Subcommittee on 
            Technology,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10 a.m. in 
room 2318, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the Subcommittee on Government Management, 
Information and Technology) presiding.
    Present from the Subcommittee on Government Management, 
Information, and Technology: Representatives Horn, Biggert, 
Walden, Ose, and Turner.
    Present from the Subcommittee on Technology: 
Representatives Morella, Weldon, Gutknecht, Miller, Barcia, 
Rivers, Wu, Weiner, Gordon, and Baird.
    Staff present from the Subcommittee on Government 
Management, Information, and Technology: J. Russell George, 
staff director and chief counsel; Matt Ryan, professional staff 
member; Bonnie Heald, communications director and professional 
staff member; Chip Ahlswede, clerk; P.J. Caceres, intern; Trey 
Henderson, minority counsel; and Jean Gosa, minority staff 
assistant.
    Staff present from the Subcommittee on Technology: Jeff 
Grove, staff director; Ben Wu and Michael Quear, professional 
staff members; Joe Sullivan, staff assistant; and Marty 
Ralston, staff assistant.
    Mr. Horn. This joint hearing of the House Subcommittee on 
Government Management, Information, and Technology and the 
Subcommittee on Technology will come to order.
    Over the past several years, these subcommittees have been 
prodding departments and agencies in the executive branch of 
the Federal Government to prepare their computer systems for 
the year 2000. In only 113 days, these systems must be ready 
for action.
    The leadership of most agencies, including the Federal 
Aviation Administration, claim that their essential computer 
systems are ready and are now being tested. Time is running 
very short. Millions of American citizens and businesses are 
counting on the Federal Aviation Administration to keep the 
Nation's vital air transportation system functioning, whether 
the date is December 1999, or January 2000. The job is 
unquestionably difficult.
    The FAA must ensure that its own systems, many of which are 
antiquated and stretched to capacity, continue working after 
the clocks tick past midnight on December 31st. Yet, if U.S. 
air travel is to maintain its high standard of safety, the 
agency and the public must also be assured that our airlines 
and airports are equally prepared for the impact of the date 
change.
    You may have noticed that our panel consists of only three 
witnesses. We invited other members of the national and 
international aviation industry to participate in this hearing, 
including representatives from the airlines and airports. They 
declined.
    Although the FAA does not have direct control over these 
privately and publicly operated businesses, the FAA's safety 
mission demands that it carefully assess the year 2000 
readiness of our aviation infrastructure and the degree to 
which public safety might be affected.
    This morning we will also examine the air traffic inter-
connections between the North American continent and Europe, 
Africa, Asia, and Latin America. We will discuss these and 
other challenges the FAA must meet in order to guarantee to all 
passengers that air travel remains safe in the year 2000.
    I welcome our witnesses and look forward to their 
testimony.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED]61204.001
    
    Mr. Horn. I am now delighted to yield to the gentlewoman of 
the House Science Committee on Technology for her opening 
statement.
    Mrs. Morella. Thank you, Chairman Horn.
    My timing was, I think, pretty precise.
    I want to welcome everybody to this morning's hearing. It's 
the latest in a series of ongoing hearings of our House Y2K 
working group, made up of the Science Committee's Technology 
Subcommittee and the Government Reform Committee's Government 
Management, Information, and Technology Subcommittee.
    As the chairwoman of the Technology Subcommittee, I'm 
pleased to collaborate again with my colleague, Steve Horn, who 
chairs the Government Management, Information, and Technology 
Subcommittee, as well as our distinguished ranking members, Mr. 
Barcia and Mr. Turner and members of both subcommittees.
    Since we began the congressional review on the year 2000 
computer problem 3\1/2\ years ago, we have focused with 
particular attention and concern on the Federal Aviation 
Administration. In fact, this is the fifth hearing that we've 
held in the past year-and-a-half on the FAA and the potential 
for Y2K aviation disruptions. That underscores the vital nature 
of the safe and efficient air transport of people and goods to 
our Nation.
    In this globally interconnected age, grounding flights is 
synonymous with grounding our economy, and yet, it became 
painfully clear from the beginning that the FAA was woefully 
behind other Federal agencies in recognizing and repairing a 
Y2K problem in their mission-critical systems.
    It was also clear that, to be Y2K compliant, FAA was 
required to undertake a major coordination effort throughout 
the agency, and that the myriad number of computer systems, 
languages, and platforms used in the national airspace system 
were all mission critical.
    Since those first hearings, the FAA has responded to our 
congressional criticism with determination and diligence, 
despite its dangerously late start, in order to assure the 
American people that the highest levels of air traffic safety 
would be maintained and that any potential business disruptions 
would be limited.
    When Administrator Jane Garvey, who was appointed after our 
first set of FAA Y2K hearings, initially appeared before us, 
she assured us that she would pilot FAA through the Y2K 
turbulence, and everyone at FAA would fasten their seat belt to 
get the job done.
    As a result, the FAA recognized the agency's mistakes of 
the past and moved forward, making the Y2K issue a top priority 
and enlisting the full support of the executive management.
    Administrator Garvey and her staff, I think, should receive 
well-deserved accolades for FAA's remarkable Y2K progress and 
for the growing consumer confidence within the aviation 
industry. I applaud the FAA's recent announcement that all of 
its systems are now fully Y2K compliant and all of its agency's 
computers requiring Y2K repairs have been successfully 
implemented or installed across the United States.
    Now, while all of this is pretty encouraging, I must remind 
the FAA, however, that the job is not finished and there is 
still much left to be done.
    As we know, the FAA relies on hundreds of computer systems 
to carry out its mission. As components of the systems break 
down, they need to be fixed or replaced, and as changes are 
made, systems need to be revalidated to ensure Y2K compliance. 
This process is ongoing and it must continue through January 1, 
2000, through that deadline and even beyond.
    In addition to making sure that their own internal systems 
maintain their Y2K compliance over the coming months, several 
issues still need to be addressed as a result of the hundreds 
of interdependent data exchange interfaces that support 
aviation operations. Every component that supports aviation, 
from navigation to ground-based maintenance and fueling 
operations, must demonstrate its ability to work together 
flawlessly with other aviation components. As a result, the FAA 
must coordinate its efforts with all of its external 
interfaces, including airports, airlines, and other foreign air 
traffic control systems.
    Today, with just 113 days remaining before the immovable 
deadline of January 1, 2000, significant concerns still remain 
regarding the status of airports, airlines, and international 
cooperation. For example, the FAA recently conducted a survey 
for the International Civil Aviation Organization, and that 
found that only 20 percent of our Nation's airports have 
complied with their Y2K preparations, and only one-third of our 
airline systems are Y2K compliant. Additionally, almost 30 
percent, which is 53 out of the 185 countries that are members 
of the ICAO, have not yet responded to the survey, and that 
provides us with no assurance of those countries' ability to 
handle air traffic on or after January 1, 2000.
    Until these remaining issues are resolved, the potential 
still exists for possible Y2K disruptions to delay or cancel 
flights around the country and throughout the world, and for 
this reason the FAA needs to continue working with all of its 
domestic and international partners in the development of 
contingency plans that ensure that certain flights will 
continue and that the transportation of people, goods, and 
services are not significantly impaired.
    Finally, I just want to say to the American people who may 
be watching this hearing today on C-SPAN or on the Internet 
broadcast, that I fully trust Administrator Garvey when she 
stresses that safety is the single-most important concern of 
the FAA.
    It cannot be emphasized enough that every single person 
that boards an aircraft in the United States will not be placed 
in any peril by the FAA because of Y2K. Administrator Garvey 
has assured us that any flight that presents a possible safety 
issue arising from Y2K complications will simply not be allowed 
to take off.
    My concern is not with the safety of our Nation's airline 
passengers, but rather with the potential economic and personal 
disruptions that may be caused by flight delays and 
cancellations.
    Thank you, Chairman Horn. I'm pleased to co-chair this 
hearing with you and look forward to the testimony of our 
distinguished panelists.
    Mr. Horn. We now yield for the purpose of an opening 
statement to the distinguished colleague from Texas, Mr. 
Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I'm glad to join with you and Chairwoman Morella to discuss 
the FAA's progress in meeting the challenges of the Y2K 
computer problem.
    I want to welcome Ms. Garvey, Administrator of the FAA; 
Transportation Department's Inspector General's Office; and the 
General Accounting Office. We appreciate the hard work that 
each of you have put in on this problem.
    I often am asked, having served on the Government 
Management, Information, and Technology Subcommittee, how I am 
going to personally respond to Y2K, and my answer has always 
been that I think we're going to be fine, I just will not fly 
on January 1st. So I'm here today, as many Americans to be 
convinced that it would be and will be safe to fly on January 
1st.
    When these committees last had a meeting on this issue back 
in March, we learned that the FAA was behind on its Y2K 
conversion efforts. However, I understand that, due to 
diligence and hard work at the highest levels, the agency has 
been able to meet its self-imposed deadline, and on July 21st 
of this year the Department of Transportation announced that 
all of the FAA's computer systems were Y2K compliant.
    According to the FAA, after more than 3 years of effort 
involving 1,100 technical experts, all of the FAA's Y2K 
computer repairs have been successfully completed. During its 
Y2K effort, the FAA conducted extensive end-to-end testing 
above and beyond individual system testings. Four system 
integrity tests, which link more than 30 mission-critical air 
traffic control systems have been successfully completed. And 
in April of this year the FAA also successfully conducted a 
major air traffic control test using Y2K-compliant systems with 
live traffic flying between Denver, Colorado Springs, Grand 
Junction, and Longmont.
    The air traffic control systems handle the rollover to the 
simulated new year safely and without incident.
    The agency will continue testing its systems and 
contingency plans up to December 31st, 1999 and through leap 
day on February 29th, 2000.
    The FAA and those who have worked to turn the Y2K program 
around from where it was last March deserve great credit; 
however, there are still significant challenges to coordinate 
efforts with other countries to ensure seamless transition for 
international flights.
    In this area, the FAA is coordinating its Y2K efforts 
primarily with six countries that represent 60 percent of 
flights to and from the United States. The FAA continues to 
meet with representatives from airlines, cargo carriers, 
general aviation airports, fuel suppliers, telecommunication, 
and other aviation stakeholders to coordinate the Y2K efforts 
and to work on contingency plans for all scenarios.
    Aviation is a segment of the transportation industry 
critical to Y2K. It is very important that we are here today to 
assess the
progress that has been made in Y2K compliance and to discuss 
matters which may remain surrounding this issue, and I hope, at 
the conclusion of the hearing, Mr. Chairman, I can say that I 
will fly on January 1st, 2000.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Jim Turner follows:]

    [GRAPHIC] [TIFF OMITTED]61204.002
    
    [GRAPHIC] [TIFF OMITTED]61204.003
    
    Mr. Horn. Well, we thank you for that succinct statement.
    I now yield for the purpose of an opening statement to the 
gentleman from Michigan, Mr. Barcia, the ranking member on the 
House Subcommittee on Technology.
    Mr. Barcia. Thank you, Mr. Chairman.
    I want to join all my colleagues in welcoming our 
distinguished panel to this morning's hearing.
    When I became the ranking member of the Technology 
Subcommittee, the topic of my first hearing was the FAA's Y2K 
efforts. Administrator Garvey had only been at FAA for a few 
months, and FAA's Y2K efforts were far behind schedule. In 
fact, at that hearing GAO painted a bleak picture of FAA's 
ability to meet the challenge.
    Administrator Garvey said that addressing Y2K issues was a 
priority for her and that she would take personal 
responsibility for FAA's efforts. I am convinced that, without 
her personal leadership, the FAA would not be so far along in 
completing its task.
    Still, challenges remain. FAA needs to ensure that any 
vulnerabilities are minimized and that corrective actions can 
be quickly taken in event that there are problems. However, 
FAA, alone, is not responsible for the operation of the 
national airspace system. If there are to be no problems, the 
airports and air carriers must also be Y2K compliant.
    I am concerned that we still lack a complete picture of the 
status of the Nation's airports and air carriers.
    I understand that FAA has surveyed these entities, and I 
would be interested in FAA's objective assessment of their Y2K 
efforts.
    I have not been a strong advocate that Y2K issues would 
pose a serious safety threat to air travel; however, I am 
concerned about the potential of Y2K issues to reduce or 
disrupt the capacity of our airspace. I have these same 
concerns about international air travel, and, again, I would 
encourage the Administrator to be blunt in her assessments 
about the potential for disruption in international air travel.
    I also hope that Administrator Garvey will address FAA 
plans to fully inform the public about any concern they might 
have about international air travel.
    I would also like to take this opportunity to commend GAO 
and the FAA's Inspector General for their efforts and 
assistance to FAA in working on their Y2K efforts. This has 
been an example of how GAO, the Inspector General, and FAA have 
worked effectively together to the benefit of FAA.
    I want to thank our witnesses for appearing before our 
subcommittees and look forward to your remarks.
    Thank you, Mr. Chairman.
    Mr. Horn. I thank you, and I now recognize the vice 
chairman of the committee, Mrs. Biggert from Illinois, the 
gentlewoman from Illinois, for an opening statement.
    Mrs. Biggert. Thank you very much, Mr. Chairman. Thank you 
for holding this timely hearing.
    Let me start by commending you for your excellent work in 
putting together this series of hearings to highlight our 
Nation's readiness for the year 2000.
    Little more than 3 months remain until January 1, 2000, and 
I think that the start of the new millennium really holds 
unlimited potential. At the same time, it presents an enormous 
challenge to those who are charged with ensuring that the 
Government's mission-critical systems are Y2K compliant. And, 
of course, this is why we are here today--to assess the 
progress being made by the Federal Aviation Administration to 
become Y2K compliant.
    FAA's role in safeguarding our Nation's aviation industry 
is critical to secure transportation; yet, reports released 
earlier this year indicate that FAA's air traffic control 
system was not fully prepared for the Y2K date change. This is 
troubling.
    Our Nation's commercial airlines, including an airline in 
my home State, have made Y2K compliance their top and highest 
priority. In fact, several of the officials have told me 
earlier this year that they expect all of their senior 
executives to fly on New Year's Day 2000, and I know that Ms. 
Garvey has also said that she will be in the air, and I've said 
several times this year that I doubt that I will be in the air 
that day. However, I am going to be in the air on January 2nd, 
so I'm hoping to hear some very positive remarks this morning 
from Ms. Garvey, and I also look forward to hearing from our 
other witnesses, and their expertise in the aviation field will 
be important and useful as we examine whether or not air travel 
in the United States on January 1, 2000, and beyond will be 
delayed or perhaps stopped.
    I'm also interested in knowing the thoughts on progress 
being made in other parts of the world to ensure that airline 
passengers are not placed in harm's way by the Y2K bug.
    So, again, Mr. Chairman, I thank you for holding this 
important hearing. I've enjoyed working this past year with you 
on the Y2K matters and trust we will continue to raise the 
public's awareness of this issue.
    Mr. Horn. Well, we thank you very much for that statement 
and what you've done to be helpful on these various hearings.
    I now yield to the gentleman from Tennessee, Mr. Gordon, 
for purpose of an opening statement.
    Mr. Gordon. Thank you, Mr. Chairman. This is an important 
hearing and I'm anxious to hear the witnesses, so I will yield 
my time.
    Mr. Horn. I thank the gentleman for his generosity of 
spirit.
    I now yield to the gentleman from California, who is also 
on the House Subcommittee on Technology of House Science, Mr. 
Gary Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    I'd like to thank the witnesses for being here today, too.
    We've had a series of these hearings on Y2K. One issue that 
has come to my attention that I'd like you to address today is 
basically a request from the U.S. airport operations urging the 
FAA to dismiss proposal on stringent Y2K testings on New Year's 
Day. That seems to be a major concern.
    I'm going to limit my opening remarks because I'd like to 
hear a response on that.
    I represent Ontario Airport, and that has been brought to 
my attention and that's a concern, so perhaps you can address 
that.
    Thank you, again, Mr. Chairman.
    Mr. Horn. I thank you and now yield to the gentlewoman from 
Michigan, Lynn Rivers of the House Subcommittee on Technology 
of House Science.
    Ms. Rivers. I also am interested in hearing from the 
speakers and will defer on an opening statement.
    Mr. Horn. I yield to the gentleman from Minnesota, Mr. 
Gutknecht, who is a member also of House Subcommittee on 
Technology of House Science.
    Mr. Gutknecht. Thank you, Mr. Chairman. I just want to 
thank you and Chairwoman Morella for holding these hearings. I 
remember when we had the first one about 4 years ago. There 
were just a handful of people in the audience and no television 
cameras, and all of the sudden I think America does realize 
this is a very serious matter.
    I think the good news is we are making real progress, not 
only the FAA but both public and private agencies, but it is 
one that I think we have to continue to monitor, and I would 
hope we would have several hearings on this issue between now 
and the end of the year.
    Mr. Horn. We thank you.
    Now, these are three experienced witnesses before us, and 
you know the routine with the Subcommittee on Government 
Management, Information, and Technology and that is we swear in 
all witnesses. After being sworn in, we will go with the 
agenda, as prepared, and we will also limit the opening 
comments to 10 minutes. If you could summarize the statement--
10 minutes for each of the three witnesses--this morning, we'll 
have more of a chance for dialog and question and answer and 
getting at some of the situation that many have talked about, 
including the Administrator.
    So, if you will, stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note all three witnesses have 
affirmed the oath.
    We now start with our lead witness at every hearing, and 
that's our colleague, Mr. Joel Willemssen, Director, Civil 
Agencies Information Systems, Accounting and Information 
Management Division, U.S. General Accounting Office.
    I don't know how many States we've had Joel go to this 
year, but it must be at least 10 where you've been the lead 
witness to give the over-all picture on behalf of the General 
Accounting Office, which is part of the legislative branch of 
the Government. We thank you and your staff for the outstanding 
work they've done on this year 2000 problem.
    Mr. Willemssen.

    STATEMENT OF JOEL WILLEMSSEN, DIRECTOR, CIVIL AGENCIES 
  INFORMATION SYSTEMS, ACCOUNTING AND INFORMATION MANAGEMENT 
            DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Willemssen. Thank you, Mr. Chairman, Chairwoman 
Morella, ranking members, Congressmen, Congresswomen. Thank you 
for inviting us to testify today on FAA's Y2K readiness.
    As requested, I'll very briefly summarize our statement, 
probably in less than 10 minutes.
    Overall, FAA continues to make excellent progress on Y2K. 
It reported earlier this summer that 100 percent of its systems 
were compliant. Our review of a sample of these systems found 
sufficient documentation to support implementation in all 
cases.
    Despite this progress, FAA's work is not yet done. For 
example, key challenges remain for the agency's internal 
systems.
    First, FAA must manage and control changes made to systems 
after those systems have been certified as compliant. As we 
testified before you in January, changes made to systems after 
they have been certified as compliant can introduce new Y2K 
problems. In recognition of this, FAA established a policy 
calling for system owners to assess whether modifications to 
compliant systems might affect the system's status, and to 
report this to the Y2K program office. However, in reviewing 
FAA's maintenance management system, we identified about 1,000 
system changes entered after June 30th that should have been 
linked to Y2K change reports but were not. In response to this, 
FAA officials told us that they plan to followup on all of 
these to ensure that system Y2K compliance is maintained.
    Second, regarding the contractor that FAA hired to provide 
independent verification and validation of systems, FAA should 
try to gain key documentation from this contractor detailing 
the issues and problems it identified with specific systems and 
how these problems were resolved. Such documentation can 
provide further assurance of systems' compliant status.
    Third, in the time remaining, FAA should consider 
performing additional end-to-end testing of multiple systems. 
FAA has performed valuable end-to-end testing of selected 
systems; however, these tests have not been comprehensive in 
that not all critical systems and components of the national 
airspace system were involved.
    In addition to these remaining risks, FAA faces the risk 
that external systems will fail--namely, those of airports, 
airlines, and international partners. FAA has been collecting 
information on U.S. airports, and the latest available 
information shows about 20 percent of the 113 airports surveyed 
were reporting that they had completed their Y2K preparations. 
Another 58 percent estimated they would finish by the end of 
this month, with the remaining 22 percent planning on a later 
date or not providing a date.
    FAA is also collecting information on airlines. The latest 
available information shows that about 33 percent of the 146 
airlines surveyed reported that their systems were Y2K 
compliant, with 35 percent planning to complete their efforts 
by September 30th, and the remainder planning on a later date 
or not providing a date.
    On August 31st, FAA requested that we treat information on 
specific airports and airlines as for official use only, and 
therefore I am unable to provide site-specific information in 
this public forum.
    Because of the risk of system failures, whether from 
internal systems or from external partners, FAA needs a 
comprehensive business continuity and contingency plan to 
ensure continuing operations through the turn of the century. 
FAA has such a plan. It identifies risks and mitigation 
strategies for core business areas.
    In the time remaining, it is important that FAA continue 
testing this plan and train its air traffic controllers and 
system specialists in using the plan should it be necessary to 
do so.
    In conclusion, it is clear that FAA's progress on Y2K has 
been impressive. Nevertheless, FAA's job is not yet done.
    In the few remaining months, the agency must still tackle 
several key issues to ensure the Y2K readiness of air travel.
    That concludes the summary of my statement, and at your 
convenience I'm here to answer any questions that you may have.
    Thank you.
    Mr. Horn. I thank the gentleman.
    [The prepared statement of Mr. Willemssen follows:]

    [GRAPHIC] [TIFF OMITTED]61204.004
    
    [GRAPHIC] [TIFF OMITTED]61204.005
    
    [GRAPHIC] [TIFF OMITTED]61204.006
    
    [GRAPHIC] [TIFF OMITTED]61204.007
    
    [GRAPHIC] [TIFF OMITTED]61204.008
    
    [GRAPHIC] [TIFF OMITTED]61204.009
    
    [GRAPHIC] [TIFF OMITTED]61204.010
    
    [GRAPHIC] [TIFF OMITTED]61204.011
    
    [GRAPHIC] [TIFF OMITTED]61204.012
    
    [GRAPHIC] [TIFF OMITTED]61204.013
    
    [GRAPHIC] [TIFF OMITTED]61204.014
    
    [GRAPHIC] [TIFF OMITTED]61204.015
    
    [GRAPHIC] [TIFF OMITTED]61204.016
    
    [GRAPHIC] [TIFF OMITTED]61204.017
    
    [GRAPHIC] [TIFF OMITTED]61204.018
    
    [GRAPHIC] [TIFF OMITTED]61204.019
    
    [GRAPHIC] [TIFF OMITTED]61204.020
    
    [GRAPHIC] [TIFF OMITTED]61204.021
    
    [GRAPHIC] [TIFF OMITTED]61204.022
    
    [GRAPHIC] [TIFF OMITTED]61204.023
    
    [GRAPHIC] [TIFF OMITTED]61204.024
    
    [GRAPHIC] [TIFF OMITTED]61204.025
    
    [GRAPHIC] [TIFF OMITTED]61204.026
    
    Mr. Horn. And we now move to the Inspector General of the 
U.S. Department of Transportation, Mr. Mead.
    The Inspector General is a role in the Federal Government 
of 24 of the Cabinet departments and independent agencies. They 
are separate from the political appointees within each 
Department, and the Congress, which established them two 
decades ago. Look to them for objective analysis of the various 
functions within the Department, as a whole--in this case, the 
Department of Transportation.
    So we are glad to have you here, Inspector General. You've 
been before the subcommittee on many times over the last 5 
years.
    Please proceed.

 STATEMENT OF KEN MEAD, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Mead. Thank you, Mr. Chairman, Madam Chairwoman, and 
members of the subcommittees.
    Mrs. Morella said five hearings. I thought it was four, so 
I've just dropped that out of the statement. I'm sure it's five 
and you're right.
    When we were here in February 1998, we were saying that the 
FAA was 7 months behind schedule and at that point just 
assessing its systems. There were real questions about whether 
the so-called ``host computer''--that's the computer that 
controls high-altitude air traffic, 20,000 feet and above--
could even make it to the year 2000. The program lacked central 
leadership. FAA was planning to have its systems ready, by the 
end of November 1999. It didn't seem to leave much room for a 
cushion.
    Frankly, as all your opening remarks indicated, and GAO's 
statement as well, all that has changed with strong 
congressional oversight, leadership by the Secretary, Deputy 
Secretary, and FAA Administrator Garvey, and truly by very hard 
work on FAA's part at the staff level all across the Nation.
    FAA has established strong central management for its year 
2000 efforts. They do have a sense of urgency. They have 
replaced most of the host computers and will complete them all 
in a couple of months. And they did meet their June 30th 
milestone. They have been responsive to nearly all of our 
recommendations.
    I think it is useful to highlight what FAA is going to be 
focusing on for the duration, and in that regard, it is useful 
to distinguish what they're doing internally and what they're 
doing externally.
    Internally, there are four areas I'd like to highlight. 
First, local computer programs may vary from facility to 
facility in the air traffic control systems; second, upgrades 
to computers; third, testing FAA's systems with foreign 
interfaces; and, fourth, business contingency plans.
    Externally, FAA will be focusing on airports, airlines, and 
international readiness.
    I'd just like to say a word about each of those.
    Before installing the year 2000 fixes into the online ATC 
system, FAA tested the systems at its test facilities and 
conducted a live test at the Denver Airport. But over the years 
various FAA facilities have adopted local computer programs 
that tend to complement or supplement their major systems. They 
need to make sure they know where all those modifications are, 
and FAA is in the process of identifying those now, because 
sometimes those local modifications can impact in a negative 
way on a system that has already been determined to be Y2K 
compliant.
    They are similar issues on upgrades. You've heard the air 
traffic control system is being modernized. They are deploying 
new systems. It is important that, once they determine that a 
system is compliant, that the compliance fix is not undone by 
an upgrade.
    With regard to business contingency plans, no matter how 
extensive the effort, there's no absolute guarantee that every 
year 2000 glitch is going to be found, so FAA has a business 
contingency plan. We think it is largely workable.
    There are a couple of issues we do have comments on. The 
controllers will need refresher training on how to operate the 
system if they have to go, on a local or national basis, to a 
non-radar procedure.
    The controllers union tells us that they feel they need 
that training.
    FAA has made significant progress with its Air Traffic 
Control Union. We think the maintenance union needs to 
participate more in the contingency plan, because if something 
goes wrong the controllers aren't going to fix it, it's going 
to be the maintenance technicians.
    FAA has invited them to participate, but their 
participation to date has not been that significant.
    Moving to external, FAA has taken an active role working 
with domestic aviation industry associations, but airports 
truly got a late start in fixing their problems.
    In June 1998, FAA sent a letter to over 5,300 public 
airports to alert them to year 2000 problems. Based on 
association reporting, airports handling about 90 percent of 
passenger enplanements are making good progress, and will be 
ready on time. I think generally FAA's work tends to support 
that view.
    But smaller airports--their number is significant, over 
4,600 of the 5,300. They handle only about 10 percent of the 
traffic. We know very little about their state of compliance.
    FAA's survey reported that 83 percent of airport safety 
systems are now year 2000 compliant, and others will be rolling 
within the next couple of months.
    If not ready by October 15th, FAA plans to send airport 
operators a warning letter with possible actions they may take 
with regard to affected airports.
    FAA also plans to require airports to perform readiness 
tests during the early hours of January 1, 2000, and I know 
that's the subject of some controversy. Maybe we can get into 
that later.
    With regard to airlines, FAA surveyed over 3,300 certified 
carriers and received responses from 41 percent of those 
carriers. Almost all of the large carriers responded.
    We feel comfortable with the large carriers in this 
country, but our sense is that FAA is going to really have to 
put the pedal to the metal with respect to the more than 50 
percent that haven't even responded to a questionnaire about 
their readiness.
    I might note that this is one area where we did make a 
recommendation to FAA that they require airlines to certify 
that they are compliant from a Y2K standpoint.
    FAA chose to take another approach. Since they took that 
other approach, that's one reason why they have to go out now 
and get roughly 2,000 airlines that didn't bother responding to 
say whether they are compliant or not.
    So it's not too late to consider that recommendation.
    Last, moving to the international arena, with just over 100 
days to go, two significant uncertainties exist.
    The first uncertainty is that the International Civil 
Aviation Organization sent out a questionnaire to about 185 
nations and asked them about their Y2K compliance--34 of 185 
nations did not respond. Later, we can get into the areas of 
the world to which those countries pertain. Frankly, it's 
uncertain what is happening in those countries, and the fact 
that you don't respond to a questionnaire does raise some 
questions about what you might say if you did have to respond.
    A second uncertainty is what we are going to do with 
respect to countries that in December we don't know whether 
they are compliant or we do know and we have some reservations 
about whether they are compliant.
    We have a recommendation on the table that FAA say what it 
is going to do with respect to those countries.
    That concludes my oral statement, sir.
    Mr. Horn. We thank you very much for that.
    [The prepared statement of Mr. Mead follows:]

    [GRAPHIC] [TIFF OMITTED]61204.027
    
    [GRAPHIC] [TIFF OMITTED]61204.028
    
    [GRAPHIC] [TIFF OMITTED]61204.029
    
    [GRAPHIC] [TIFF OMITTED]61204.030
    
    [GRAPHIC] [TIFF OMITTED]61204.031
    
    [GRAPHIC] [TIFF OMITTED]61204.032
    
    [GRAPHIC] [TIFF OMITTED]61204.033
    
    [GRAPHIC] [TIFF OMITTED]61204.034
    
    [GRAPHIC] [TIFF OMITTED]61204.035
    
    [GRAPHIC] [TIFF OMITTED]61204.036
    
    [GRAPHIC] [TIFF OMITTED]61204.037
    
    [GRAPHIC] [TIFF OMITTED]61204.038
    
    [GRAPHIC] [TIFF OMITTED]61204.039
    
    [GRAPHIC] [TIFF OMITTED]61204.040
    
    [GRAPHIC] [TIFF OMITTED]61204.041
    
    [GRAPHIC] [TIFF OMITTED]61204.042
    
    [GRAPHIC] [TIFF OMITTED]61204.043
    
    Mr. Horn. We now have Administrator Garvey, and we thank 
you for coming. You've done a great job since you've arrived in 
Washington, and we look forward to your testimony.

   STATEMENT OF JANE GARVEY, ADMINISTRATOR, FEDERAL AVIATION 
                         ADMINISTRATION

    Ms. Garvey. Thank you very much.
    Chairman Horn, Chairwoman Morella, and members of the 
committee, good morning and thank you very much for the 
opportunity to appear before you this morning to report on the 
status of the FAA's Y2K compliance efforts.
    When I last appeared before your committees, I promised you 
that the FAA would be Y2K compliant by June 30, 1999. I am 
pleased to report to you today that we met that deadline. And 
I'm also pleased to say that the DOT's Inspector General 
conducted a sample review of our work and has approved it, 
while an independent contractor has validated our approach, has 
validated our compliance.
    Each of our components in which a Y2K fix was required has 
undergone multiple testing and validation. I know there are 
some additional questions, and we'd be happy to talk about that 
in the question and answer period. These components' parts and 
their fixes were then tested in an end-to-end test on April 
10th of this year.
    During this end-to-end test, our air traffic control 
systems were set forward to December 31, 1999, and rolled over 
to January 1, 2000. The results were that our system fixes 
operated through this transition flawlessly. Nevertheless, we 
will continue to test portions of the system as we progress 
through the next few months.
    A critical question for us is maintaining the integrity of 
our Y2K compliance status by making sure that any changes we 
make to our systems in the normal course of business, such as 
routine maintenance and software upgrades, are Y2K compliant, 
and both the Inspector General and the GAO have raised that 
issue.
    Moreover, we've established a moratorium on changes to the 
National Airspace System from mid-November through early 
January 2000. We believe we've got a process in place to 
protect that integrity, and, in addition, we will have a 
moratorium for any changes to the National Airspace System, as 
well.
    In addition to our operational fixes and our testing, we've 
developed a comprehensive business continuity and contingency 
plan. I think that is critical, as well. This plan really 
builds upon our previously existing contingency plans to 
specifically address potential disruptions caused by the Y2K 
phenomena.
    Our contingency plan has been developed, it has been 
modified with the participation of our labor work force and 
their elected representatives. We know that that's something we 
want to constantly do--continue to work with our labor unions 
to make sure that they are very much involved in this.
    We are confident that, given the success of our end-to-end 
test, as well as with the multiple testing conducted prior to 
this event, we will safely transition into the year 2000.
    And, while it's true that the air traffic control system 
has been and is our priority, our efforts do not end at FAA's 
door, and I think the IG has appropriately highlighted some of 
these issues.
    We are aggressively working with our industry partners, 
with airlines, with the airports, and with the international 
community to raise their awareness and their need to achieve 
Y2K compliance in order to satisfy their obligation under the 
FAA's safety regulations. For example, we've told the domestic 
airport operators that we expect airport systems which may have 
an immediate effect on safety to be Y2K compliant by October 
15, 1999, or they must provide an alternative means of 
compliance with current safety regulations. So they'll tell us 
by October 15th either they are Y2K compliant or what their 
contingency plan is.
    For domestic air carriers, all U.S. certificate holders 
must be able to demonstrate regulatory compliance with 
operations and maintenance requirements on or after January 1, 
2000.
    While confidence grows within the United States--and I 
think it appropriately grows--we know that there is increasing 
anxiety about the international community.
    The FAA and the Department of Transportation, along with 
the Departments of Defense and State, lead an interagency 
working group which is currently reviewing the information 
gathered from the International Civil Aviation Organization 
[ICAO].
    And I want to stress that we are doing this very much in 
harmony and cooperation with the Departments of Defense and 
Departments of State.
    And, while we are still in the process of reviewing the 
information, the preliminary analysis suggests that, if there 
should be a Y2K-related incident, it would take the form of 
limited disruption in service at some international 
destinations.
    Let me assure you, though, as I have in the past, as I know 
the Deputy Secretary has said before this committee, that, 
should we gain knowledge or learn of an incident that would 
affect the safe operations of the civilian air fleet, we are 
prepared to act appropriately. I think it is going to be 
critical that we monitor the information that we have.
    I can also tell you that the information that we're 
receiving will be up on the Web, summaries of that, by the end 
of September. The information will be available publicly. Since 
we believe that the public has a right to know, we do plan then 
to publicly disseminate international Y2K assessments by the 
end of this month.
    Let me conclude on two notes. First, I am extraordinarily 
proud of the efforts of the FAA staff, for their dedication and 
their commitment to reaching that June 30th deadline. It was a 
terrific effort. As Ken Mead has said, it involved people 
throughout this country working overtime, giving up vacations, 
and just pressing ahead on that June 30th deadline.
    But I'm also very grateful to the personal involvement of 
both the Inspector General and GAO. They personally--both of 
these gentleman personally have been at meetings that we hold. 
Their staffs have been out to the field with us. And I really 
think they have been critical to the success we've received and 
met to date.
    And, finally, also, I'd like to thank publicly the members 
of this committee. I believe--and I'd like to say that I think 
we would have responded appropriately in face of the Y2K 
challenge, but there is no doubt that the attention of this 
committee, the focus that you've brought to the issue I think 
really has kept the debate very much on the public stage, if 
you will, and that has been extraordinarily helpful.
    We are confident, but I want to stress that we are not 
overly confident. We agree with all of the comments that have 
been made this morning that there is still a great deal of work 
to do. There is still much that needs to be accomplished 
between now and January 1st, but we remain committed and I 
remain personally committed to seeing this effort through to an 
absolute wonderful completion.
    And, Mr. Turner, I don't know if we've convinced you yet, 
but we'll save you a seat on that plane.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ms. Garvey follows:]

    [GRAPHIC] [TIFF OMITTED]61204.044
    
    [GRAPHIC] [TIFF OMITTED]61204.045
    
    [GRAPHIC] [TIFF OMITTED]61204.046
    
    [GRAPHIC] [TIFF OMITTED]61204.047
    
    [GRAPHIC] [TIFF OMITTED]61204.048
    
    [GRAPHIC] [TIFF OMITTED]61204.049
    
    [GRAPHIC] [TIFF OMITTED]61204.050
    
    [GRAPHIC] [TIFF OMITTED]61204.051
    
    [GRAPHIC] [TIFF OMITTED]61204.052
    
    Mr. Horn. We're going to have a series of questions, and 
each member will have 6 minutes in which to answer the 
questions. We'll then have another round if we haven't finished 
with the various questions.
    Let me begin with just clarification here. I think I heard 
you right in your oral testimony that a lot of the data would 
be released, hopefully by the end of the month, but let me go 
through this, to make very sure for the record that we're 
talking on the same things.
    Federal Aviation Administration compiled a wealth of 
information on domestic airline and airport year 2000 
readiness. The data was provided to the International Civil 
Aviation Organization in July. Furthermore, this information 
was provided to the General Accounting Office in August. 
However, on August 31st of this year, FAA notified GAO that 
this information was ``for official use only,'' essentially 
placing a gag order on GAO for not discussing this information 
today.
    Last night, we received this data.
    Let me ask you, why was the data essentially deemed to be 
for official use only?
    Ms. Garvey. Mr. Chairman, in discussions with the general 
counsel's office at DOT, as well as our own FAA counsel, there 
were questions raised about what we could and what we could not 
release.
    We were very eager to release the information as quickly as 
we could. We've worked closely and hard since the end of 
August, with both general counsel at DOT and our own chief 
counsel, to resolve the issue. We've had discussions with ICAO, 
and yesterday our general counsel at DOT agreed and gave us the 
OK, if you will, to release the document that we had given to 
GAO.
    There were some questions, particularly on the 
international, whether some of that information was classified, 
but we've talked with ICAO and we're comfortable in releasing 
it.
    The information that we will be releasing at the end of 
September is information that we've reviewed with State, with 
the Department of Defense, and we'll be doing summary 
information that will go up and I hope will be a very customer-
friendly way for the American public to be able to take a look 
at what's happening in all of those countries.
    But it was essentially a legal issue. We've resolved it. 
And I'm glad to say we've resolved it.
    Mr. Horn. In terms of domestic airports, then, we will 
certainly be able to release that information, I take it?
    Ms. Garvey. Yes. Absolutely.
    Mr. Horn. And ICAO, the International Civil Aviation 
Organization, will not have a veto on that?
    Ms. Garvey. Absolutely. And, again, that information, in 
addition, will be up at the end of September in a more 
customer-friendly way, if you will.
    Mr. Horn. Now, if we move across from the United States, 
and particularly Los Angeles, where I land every other week, or 
New York, or Chicago, will there be any difficulty in finding 
out the situation at Frankfurt, let's say, or any other major 
international airport?
    Ms. Garvey. No, it should not.
    Yesterday there was still, I think, one remaining question. 
We just wanted to further clarify with ICAO that some elements 
may have been deemed classified.
    We don't think they are, and I believe that that call 
didn't take place last night. It will take place this morning, 
but more as a courtesy to them, as well.
    But in conversations that I've had with senior members of 
ICAO, I think they have been expecting at some point more 
information to be released.
    Mr. Horn. Well, I'm delighted to hear that. So there's no 
problem with airports. How about with airlines on releasing 
those data?
    Ms. Garvey. Well, one of the reasons I understand that the 
airlines are not here today is they are beginning a pretty 
aggressive public effort in major U.S. cities, beginning in New 
York today and traveling to all of the major cities, to talk 
about Y2K compliance and their information that they have to 
date, so I think, again, as we get closer, we will be releasing 
that.
    Some of that information we have to date, and others of it 
we don't yet have, so we will be gathering that over the next 
several weeks, Mr. Mead said.
    Mr. Horn. Mr. Willemssen noted in his testimony--and I 
think we've all agreed--that the survey had 20 percent of the 
airports were completed and 58 percent by the end of September, 
and then 22 percent later. We don't know what ``later'' means, 
whether it is October, whether it is December 31st.
    Are you confident, then, on the airport data, that where 
they will be, let's say at the end of November? Do you think 
they'll all be compliant at the airport side?
    Ms. Garvey. Well, I'll be able to answer that better, I 
think, on October 15th, and that's why that's so critical.
    I can say that we did do site visits to 150 of the major 
airports earlier this summer, and that encompasses over 93 
percent of the enplanements, so those are the important, very 
important, airports. And we were very, very encouraged, the 
information that we were able to get at that point.
    And, again, I will stress that our focus are the safety 
systems, and there are about 20 systems that are actually 
regulated and about 7 or 8 on airports that are directly linked 
to safety, and those are the ones that, obviously, from our 
perspective, are the most critical. It involves lighting and 
communications, fire trucks, those sorts of things.
    Mr. Horn. At this point, is there any airport of, let's 
say, a medium-sized airport and up, that is sort of a basket 
case at this point and has a lot to do?
    I'm not asking you to name it, particularly. I'm just 
saying, are there some problems like that out there, based on 
your first survey?
    Ms. Garvey. I'm more confident with the larger airports. I 
think they are in very good shape. I would say that some of the 
mid-sized airports, when last I looked at it, probably had some 
work to do, but there was nothing that was causing us great 
alarm at that point. October 15th will be important, though.
    Mr. Horn. How about the international airports and the 
international aviation firms? Any feeling there that they are 
lagging quit a bit behind the United States, or what?
    Ms. Garvey. Well, I think we have some concerns. I think, 
as Mr. Mead said, the information, the early information from 
ICAO raised some flags for us in some areas, but we've gone 
back to those areas. ICAO has put a very hard press on.
    So, again, the information that we're getting in this month 
is critical, and having that on the Web at the end of the month 
I think will be very helpful.
    Good progress, more progress at the end of the summer than 
certainly the beginning of the summer. I think ICAO was really 
keeping the pressure on, and I think that's appropriate and 
very good to do.
    But, again, we will be releasing that information, and full 
disclosure is really going to be our motto, if you will.
    Mr. Horn. Yes, Mr. Mead?
    Mr. Mead. I have to get accustomed to the technology. This 
advanced technology----
    Ms. Garvey. I can explain it to you after, Mr. Mead, if you 
like.
    Mr. Horn. We need a GAO survey, first. [Laughter.]
    Mr. Mead. I think that the key for airlines and airports, 
and internationally, is not only the public disclosure, but 
that there be some consequences attached to not responding to 
the Federal Aviation Administration.
    We have roughly 2,000 small carriers out there, for 
example--I alluded to them in my statement--that have chosen 
simply not to respond to the agency that licenses them. I don't 
think that should be permitted.
    So I think the disclosure, coupled with an announcement 
that there will be some consequences if we don't have a comfort 
level, will do the trick.
    Mr. Horn. Well, can their license be yanked, shall we say? 
That isn't just north of the Mason-Dixon line. But just what 
can the FAA do about that to make sure they answer the survey?
    Mr. Mead. Well, I think they can make it a condition of 
their continued operation that they respond.
    And, with regard to foreign nations, I do think the U.S. 
Government has some control over at least U.S. airlines and 
where they fly to.
    Mr. Horn. Mr. Willemssen, any comments before I turn to 
Mrs. Morella for questioning?
    Mr. Willemssen. Just to add that, in our experiences on Y2K 
beyond aviation, one of the biggest motivational tools to get 
entities on board on Y2K is to publicize site-specific Y2K 
readiness information. That has been a tremendous motivational 
tool to get those entities who are behind on track with the 
program and in compliance in time.
    So I would just echo that statement.
    Mr. Horn. Well, I'm delighted to hear you say that, because 
you're absolutely correct, and there is no gag order now, and 
the data will be out by the end of this month. So we thank you.
    I now yield for questioning to my colleague and co-
chairman, Mrs. Morella of the House Subcommittee on Technology.
    Mrs. Morella. Thank you, Chairman Horn.
    I just want to again thank the three of you for being so 
exemplary in the teamwork, working together, where you've got 
GAO that can be critical and look internally, and the Inspector 
General, who also scrutinizes very closely, and the FAA 
Director.
    I think you are a great example for other agencies, also, 
in working together.
    Mr. Mead, this is the fourth time you have testified, but 
we have had five hearings on the issue. I wanted to ask you, 
the FAA has identified 21 mission-critical systems that could 
pose the greatest risk to the national airspace system if 
they're not available on January 1, 2000. Of the 21 systems, 
only eight have been tested, as I understand it, in an end-to-
end environment. Why haven't the other 13 systems been part of 
an end-to-end test?
    I wonder--I would imagine, but I wonder, do you have them 
as far as the plans in the future for this end-to-end testing?
    Ms. Garvey. Congresswoman, the 12 or so that you've 
mentioned--let me back up a little bit.
    We had a certain criteria when we looked at the end-to-end 
test. One was that they had to have gone through Y2K repairs, 
because some of our systems, though critical, didn't need to 
have Y2K repairs. So they had to have gone through the Y2K. 
They had to be an integral part of the system--in other words, 
not just stand-alone systems, but an integral part of the 
system, and they had to be used nationwide.
    So we've taken a look at those 12 additional systems, if 
you will, and they did not meet that criteria, which is why 
they were not part of the end-to-end testing. But I will say 
that systems that need to be tested, even those that stand 
alone, are tested as stand-alone systems.
    Remember from our previous discussions that one of the 
uniquenesses of the FAA system is how interconnected this 
system is. So if they are stand-alone systems, they were still 
tested, but they were not tested as part of the end-to-end. We 
were looking for those systems that were interconnected.
    Mrs. Morella. Mr. Willemssen, could I ask you to comment on 
that, also?
    Mr. Willemssen. Yes. Some of those systems are stand-alone 
systems, and therefore it wouldn't make a lot of sense to test 
them end-to-end. Some of those systems are not stand-alone 
systems. Indeed, some of them are communications systems which, 
by definition, are not stand-alone systems.
    We would like to see, in the remaining months, some effort 
made by FAA to try to test those in an end-to-end environment. 
Given that we have the months remaining to do it, I think that 
FAA should embark on that kind of effort.
    I would not necessarily agree that, just because a 
particular system early on was not judged to need Y2K repairs, 
that we shouldn't test it in an end-to-end fashion at this 
point in time.
    We have seen other examples where one system was deemed 
compliant, again outside of FAA, another system was deemed 
compliant, but when they worked together there were problems 
because of the differences in how that compliance status was 
attained, and therefore I still think, in the remaining months, 
that it would be especially important for FAA to take another 
look at that, especially on those critical communication 
systems, to see what additional testing can be done.
    Mrs. Morella. Splendid. Will you do that, Ms. Garvey?
    Ms. Garvey. We will.
    Mrs. Morella. Good.
    I have time, I think, for another question in this first 
round, and that is, I'm concerned that 53 countries have not 
responded to the ICAO survey. What further steps--I would ask 
each of you--should the FAA take to learn more about the status 
of these countries? Mr. Mead?
    Mr. Mead. Well, we know who they are.
    Mrs. Morella. We know who they are.
    Mr. Mead. I think that should be publicized.
    Mrs. Morella. OK.
    Mr. Mead. I believe that serious consideration should be 
given to placing restrictions on U.S. carrier flights to 
countries that will not even respond to a questionnaire about 
where they stand on Y2K compliance.
    In some of these nations, frankly, the Y2K problem may be 
the least of the problems. Some of their air traffic equipment 
may be ancient, and there may be even deeper problems.
    But I would try that approach. I agree with Mr. Willemssen 
and Ms. Garvey about disclosure being a motivational factor, 
but I believe that needs to be coupled with some indication 
that there will be consequences for not responding.
    Mrs. Morella. So how do we do that? I mean, tell us. Be 
practical in terms of what the next step should be and what you 
will be doing. Ms. Garvey?
    Ms. Garvey. Just to pick up a little bit on what Mr. Mead 
said, I think, for example, the fact that we know where they 
are is extraordinarily helpful.
    Obviously, we can send or ICAO can send some all teams in 
to work with them. And we've done that, by the way, 
internationally, from, you know, for the last year or so. We've 
had people that are assigned just to the international efforts 
and have been part of ICAO teams that have gone into countries 
and worked with them to figure out exactly where they are with 
Y2K.
    So I think knowing where they are and sending in specific 
teams, in fact, is occurring and should occur.
    I think the public disclosure, again, at the end of this 
month is going to be extraordinarily helpful, and I think Mr. 
Mead is right--keeping on the table further restrictions or 
travel restrictions from the United States--well, obviously, we 
would involve State in those discussions and they would not be 
taken lightly. I think having that as a sort of ultimate step 
is one way to also keep some pressure on, as well.
    I certainly hope in the last couple of weeks that number, 
53, has gone down. Some of that is information that may, you 
know, be updated, and we're looking at that every day.
    Mrs. Morella. And we assume you'll be working with our 
State Department and the consular office in----
    Ms. Garvey. Absolutely.
    Mrs. Morella [continuing]. Getting this information out. 
Thank you.
    Ms. Garvey. Thank you.
    Mr. Mead. Mrs. Morella, if I might just say, if you 
consider the time of year that is most critical here that we're 
all focusing on, I think it is probably the early period of 
January, a key vacation time. Some of these places are popular 
vacation destinations.
    Mrs. Morella. Yes.
    Mr. Horn. I now yield to the gentleman from Texas, Mr. 
Turner, for questioning for 6 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    Following up on what Mrs. Morella was asking, it seems to 
me that it would be appropriate for this joint committee to ask 
you, Ms. Garvey, to give us some written plan that will reveal 
to us exactly what you are going to ask for and what kind of 
public disclosures will be made.
    It seems that what we ought to be seeing here is the hammer 
that Mr. Mead is talking about, it needs to be disclosed to the 
airlines and to the international community, give them time to 
recognize what you plan to do if they don't respond to you. In 
fairness they need notice. If they refuse to comply, then they 
know that you are going to publish a list or you're going to 
have a press conference or you're going to post it on the 
Internet, or whatever actions you are going to take. If you're 
going to demand that no flights go into a certain country 
because you haven't heard the status of their compliance those 
kind of things, in fairness, need to be known by those other 
parties, and then, if they fail to comply--or even if they do 
comply--then it is time to give the American people, the air 
travelers, notice in some specific way regarding the failure of 
those other airlines or those other countries or airports to be 
compliant.
    And unless you have a specific plan, it doesn't seem to me 
that we can be fair to all the parties involved, nor can we get 
the right information to the American public.
    It seems to me, even if our airlines understand that you 
are going to take a certain action at a certain date, they will 
increase the pressure on the international community to get 
into compliance. So that seems to me what Mrs. Morella was 
talking about, and it doesn't seem that we really have heard 
that today, and perhaps you could do that for us and then we 
could be assured that all of these things that we're talking 
about really have some form and substance to them.
    Ms. Garvey. Mr. Turner, I would agree. And I think you're 
right, by the way, in terms of pressure even from the airlines. 
They are extraordinarily, I think, effective in that regard, as 
well.
    Let me do two things. One is, we can submit to you and for 
the record an in-depth discussion, if you will, our plan that 
we have internationally, both what we've done to date and some 
of the very specific steps where we might be having site 
visits, what might be
some of the followup information in terms of the survey, and 
we'll definitely submit that for the record.
    Mr. Horn. Without objection, that will be put in the record 
at this point.
    Ms. Garvey. Thank you very much, Mr. Chairman.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]61204.053
    
    [GRAPHIC] [TIFF OMITTED]61204.054
    
    [GRAPHIC] [TIFF OMITTED]61204.055
    
    [GRAPHIC] [TIFF OMITTED]61204.056
    
    [GRAPHIC] [TIFF OMITTED]61204.057
    
    [GRAPHIC] [TIFF OMITTED]61204.058
    
    [GRAPHIC] [TIFF OMITTED]61204.059
    
    [GRAPHIC] [TIFF OMITTED]61204.060
    
    [GRAPHIC] [TIFF OMITTED]61204.061
    
    [GRAPHIC] [TIFF OMITTED]61204.062
    
    [GRAPHIC] [TIFF OMITTED]61204.063
    
    [GRAPHIC] [TIFF OMITTED]61204.064
    
    [GRAPHIC] [TIFF OMITTED]61204.065
    
    [GRAPHIC] [TIFF OMITTED]61204.066
    
    Ms. Garvey. Let me also go back to a discussion we had in 
Montreal last year. It was the fall of last year, and this I 
think goes right to your point about letting countries know, we 
had an international gathering of all of my colleagues from 
around the world representing aviation agencies in their 
respective countries, about 185 countries, in total.
    The United States, at that forum, introduced two very 
critical resolutions. One was that ICAO publish a list of 
criteria for Y2K compliance and that be published by January of 
last year, which ICAO did. A lot of discussion around these 
resolutions, but it passed overwhelmingly and ICAO did follow 
through on that.
    The second was a resolution that said, ``Look, if the 
countries do not submit information by June 30th--'' this past 
June 30, 1999--``then other countries--'' in this case it was 
the United States making the resolution--``had the option of 
issuing travel restrictions,'' what's called in the aviation 
world ``NOTAMS.'' But it is essentially the ability to issue 
travel restrictions.
    So those were resolutions that were discussed in an open, 
public forum, with international countries in attendance, and 
was accepted by the body. So I think those were two very 
important steps in certainly giving the heads-up, but we will 
submit the plan, the detailed plan, for the record, as well.
    Mr. Turner. It seems to me that what is going to happen if 
we don't have some time table and some point at which we----
    Ms. Garvey. Absolutely.
    Mr. Turner [continuing]. Reveal to the American public the 
status of their air safety, that we are going to have air 
travelers making their travel plans and their reservations with 
airlines, and they're going to be saying, ``Well, is it OK to 
fly into such-and-such a country?''
    Ms. Garvey. Sure. Absolutely.
    Mr. Turner. I think Chairman Horn has done an excellent job 
of using the bully pulpit and the publicity that can be 
generated from a congressional committee to talk about Y2K and 
to urge compliance and get information out. Perhaps, Mr. 
Chairman, we could have a similar event regarding air safety. 
It seems to me that somewhere around December 1st----
    Ms. Garvey. Oh, absolutely.
    Mr. Turner [continuing]. The American public deserves to 
know the exact status of Y2K compliance, and that it be 
publicized in numerous ways in order to be sure the information 
is available to them.
    Ms. Garvey. Right. I think the first introduction on the 
Website at the end of this month is going to be very closely 
watched, and travel agents and so forth, and I think the 
average traveler, too, is going to want to access that 
information. I think you are absolutely right. And our 
challenge will be to keep it updated, not just stopping at the 
end of September but adding to it in October, adding to it 
again in November, and I expect there will be many questions 
around that as we get closer. I think you're right.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Horn. I thank the gentleman. I was thinking of maybe 
Halloween for a hearing or something on this.
    I now yield to the vice chairman, Mrs. Biggert, the 
gentlewoman from Illinois, for 6 minutes of questioning.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Just one more question on the international flights. Does 
the FAA have the authority to ground international flights if 
there is a computer problem or civil unrest in some of these 
other countries because of Y2K, or whatever it would be? Do you 
have that authority in case of, for instance, war times or 
severe weather conditions?
    Ms. Garvey. The FAA has the authority, when safety is at 
risk--and, again, we want to get back to our mission of safety, 
when safety is at risk--to issue travel restrictions. It takes 
the form of what is called NOTAMS, or special, you know, 
restrictions that we might put in place. And sometimes when you 
go into an airport you'll see a sign that the Secretary of 
Transportation has restricted air travel to certain countries. 
So we would use those same regulatory powers.
    But, again, I want to stress it is when safety is at risk. 
We take that, as Congresswoman Morella said, very seriously.
    Mrs. Biggert. So you will consider that in case there is a 
problem?
    Ms. Garvey. That is certainly an option if safety is at 
risk.
    Mrs. Biggert. There was something in the paper or the media 
at some point--and I'm sorry I don't have the exact article--
but it talked about having, after the first flights, the 
turnover December 31st into January 1st, talking about somewhat 
of a shutdown to do testing right after that. Do you recall?
    Ms. Garvey. Congresswoman, I believe that refers to the 
rule that--we are in the process of rulemaking right now. We 
have proposed that airports, after midnight of January 1st, 
before their official operations begin, that they do a sort of 
post-testing to make sure everything is all right.
    Of their critical safety systems that we regulate--for 
example, that would be lighting, that they test their lighting, 
that they test the fire trucks to make sure that they are still 
working appropriately and so forth. So it is a very limited 
number of systems that would be tested.
    We have proposed that. We've received a number of comments 
that are technical in nature that suggest making some changes 
to it. We are reviewing those comments now.
    Mr. Miller mentioned when he was here that his airport was 
particularly concerned about it.
    We don't want to be burdensome to airports in any way. on 
the other hand, we do think it is prudent to do some testing to 
make sure everything is still OK, so we're reviewing those 
comments right now, and I believe that's what the press was 
referring to.
    Mrs. Biggert. That's right. That's what it was.
    Do you foresee, in doing that, that there would be then a 
shutdown or a slowdown?
    Ms. Garvey. We're not envisioning, Congresswoman, a real 
shutdown, but we're saying before those operations begin in 
earnest--and, again, we're talking between the hours of 12 
midnight, when there are not a lot of operations, ordinarily--
there is no need to go through the drill on January 1st. But 
sometimes testing the system requires that the system be 
capable of having the clock rolled forward to January 1, 2000.
    Mrs. Biggert. Well, it seems that there have been so many 
changes since July 1st, 1999, so many change orders or changes 
on the computer systems, but then doesn't that require further 
testing so until you really get to that date, there might have 
been changes that could affect the system?
    Ms. Garvey. Well, first of all, I believe we've got a very 
good process in place to make sure that those changes are Y2K 
compliant, but I do want to mention, because I think that GAO 
appropriately brought up a concern about 1,000 changes that 
they had seen, we're going back and just taking another look at 
that, but what we believe at this point is that the vast 
majority of those changes occurred before June 30th. So we 
think they can be accounted for. But we're going to double 
check, and we think GAO is right to flag that.
    We think it is only about 66 that have actually occurred 
since June 30th.
    I might also mention we have a wonderful team. Ray Long, 
who used to head the Y2K office, has moved to a new position, 
and he is responsible for all the sort of organizational 
support to these systems, and he is going in and doing a kind 
of validation and double checking of what's happening at the 
local facilities and those changes that have taken place, and 
no one will understand it better than he.
    Right question. I think we've got a good answer to it and I 
think we're on top of that.
    Mrs. Biggert. All right. Thank you. Thank you, Mr. 
Chairman.
    Mr. Horn. Thank you. It is--if I might ask, you have an 
acting person in that position now. Is there going to be 
confirmation of that individual, or what?
    Ms. Garvey. Mr. Chairman, there will be very soon, and I 
might say the acting person, Mary Powers King--who is sitting, 
I think, right behind me--is doing an extraordinary job. She 
has been a very able deputy since we put the program in place 
and hasn't missed a beat. So it is wonderful to have her there, 
as well.
    Mr. Horn. Well, I'm glad to hear that, because we've been 
stressing the management aspect of this problem----
    Ms. Garvey. Right.
    Mr. Horn [continuing]. Not just technology, and we need 
managers in there.
    Ms. Garvey. Great team. Thank you.
    Mr. Horn. I now yield to the gentleman from Oregon, Mr. Wu, 
of the House Committee of Science, Technology Subcommittee.
    Mr. Wu. Thank you, Mr. Chairman.
    Administrator Garvey, I'd like to apprise you of a 
situation out on the west coast. It is not of a global nature, 
such as a Y2K problem, but it is very much connected with 
technology, and, unlike the situations that we might be 
concerned about at Frankfurt or LAX, this has to do with a 
community airport in the community of Astoria, OR. And it just 
so happens that Astoria is in my congressional district.
    The airport has the good fortune to be at the mouth of the 
Columbia River, one of the most dramatic places in the world. 
Unfortunately, the drama is not just in the river but it is 
also in the weather there.
    Now, this airport is not a large, international airport. I 
believe, under your system, it is a level D airport. And it 
used to have four women observing the weather, and those four 
individuals have been replaced by ASOS, and I've had the 
pleasure of flying in and out of that airport----
    Mr. Horn. Can someone explain what that term means?
    Mr. Wu. It's an automated weather system----
    Mr. Horn. OK.
    Mr. Wu [continuing]. That is basically a hardware/software 
combination. It's supposed to monitor the weather accurately 
and in real time. But I believe that there are some special 
conditions at this airport which may cause some problems with 
the ASOS system. I have tried to bring this issue to the 
attention of General Kelley at the National Weather Service, 
and thus far we haven't had a satisfactory resolution of the 
situation.
    Basically, ASOS looks straight up, I believe, and, having 
been through that airport, I know that conditions at one end of 
the runway can be very, very different from conditions at the 
other end of the runway, and basically what can happen is ASOS 
can tell you that the weather is clear when the other end of 
the runway may be socked in, or, conversely, it may tell you 
that the airport is socked in when the other end of the runway 
is clear. And under one set of circumstances someone flying in 
visually would be flying into an instrument weather condition, 
potentially, and under the other situation VFR pilots might be 
turned away from the airport because they think that it's IFR 
conditions.
    This is a problem for the community, and I just wanted to 
apprise you of the situation. It is not of the scope of an LAX, 
Frankfurt. It is not of the scope of a Y2K situation. But it is 
very important to the community and I wanted the FAA to know 
about it because the National Weather Service thus far has not 
responded, in my view, in a sufficient manner.
    Ms. Garvey. We'll take a look at that, Congressman, and 
certainly the issue of safety is really critical, and in those 
cases where we've had ASOS we've been very careful about 
monitoring to make sure that we're not compromising safety in 
any way, so let me take a look at that.
    Mr. Wu. Thank you.
    Mr. Horn. I'd like to have a response to the committee on 
that issue and, without objection, it will be put in the record 
at this point. You've raised a very good and important 
question.
    Mr. Wu. Thank you, Mr. Chairman.
    Ms. Garvey. Thank you, Mr. Chairman.
    Mr. Horn. You're welcome.
    Mr. Wu. I yield back the balance of my time.
    Mr. Horn. I now yield to Mr. Ose, the gentleman from 
California.
    Mr. Ose. Thank you, Mr. Chairman.
    A couple of questions, if I might.
    I'm a little bit confused about something. I think it was 
Ms. Garvey, you mentioned the 53 locations that are of concern 
at present in terms of international travel.
    Ms. Garvey. Congressman, it was 53 countries that had not 
yet responded to the Y2K survey, and I would, again, just add 
that that may be a lower number today than it was----
    Mr. Ose. So it might be 45 or 30 or whatever?
    Ms. Garvey. Exactly.
    Mr. Ose. Well, the reason I ask that question--and I'm 
aware of the delicate nature of saying anything reflecting on 
this, but when I've traveled internationally I make my plans 90 
to 120 days in advance, and it seems a stretch, if I were to be 
making my plans 90 to 120 days in advance, to wait until 
December 1st to advise the American public about countries that 
maybe they don't want to travel to.
    So I'm interested in finding out whatever the list is. I'm 
interested in finding out what countries there are that either 
have not responded or not complied or that otherwise pose a 
potential danger, if you will, to American citizens flying in 
and out of those countries.
    Ms. Garvey. Congressman, we can provide that information. 
We've forwarded some information yesterday to the committee, 
and we also have an inter-agency group now with the Department 
of Transportation, State, and the Department of Defense that's 
taking a look at all the information as it is coming in and 
will be putting up on the Web at the end of this month the most 
current information that we have. But we have even more detail, 
probably more than would go up on the Web because it wouldn't 
be very customer friendly, if you will, but we can certainly 
provide that to the committee and to you, individually, and we 
would be happy to come up and brief you in detail.
    But I do want to stress, again, we are working with State, 
and State will be putting out that information beginning at the 
end of September and will be adding it to the Web, so we'll be 
doing it in those two ways and we will be updating it from the 
end of September on.
    Mr. Ose. So it will be a matter of public record on or 
after September 30th?
    Ms. Garvey. That is correct, sir.
    Mr. Ose. And the reason for not making it public record 
today?
    Ms. Garvey. Well, in some ways it is public, because we've 
been able to give the information to the committee. What is 
occurring between now and September 30th is that the inter-
agency group is reviewing all of that information and is 
summarizing it, getting it ready for the Web, making some 
assessments as a team, and also still gathering the 
information. Some of this information is still coming in.
    Certainly, though, the issue about which countries have not 
responded to date, while I want to update that, is something 
that we could provide to you.
    Mr. Ose. So today being September 9th, you're--I perceive 
implicitly that your advice to people would be between now and 
September 30th maybe they ought to hold their fire on making 
any plans traveling over--I mean, I'm trying to get to this. I 
don't understand why it is that we can't at least perhaps make 
the information public today. It might affect----
    Mr. Horn. Would the gentleman yield for a comment?
    Mr. Ose. Certainly.
    Mr. Horn. And I just want to bring you two together here, 
and I agree with Mr. Ose.
    Would it be appropriate for, since you furnished some of 
this to the subcommittee already--and we went over a lot of it 
yesterday--would it be appropriate for us to issue a statement, 
if you don't issue it this week, as to which countries have not 
replied to the survey?
    Ms. Garvey. I think, you know, Mr. Chairman, that would 
be----
    Mr. Horn. Just to warn people that this is----
    Mr. Garvey [continuing]. That would be fine. I would see if 
I could get more updated information for you. I'd like to give 
you the most up to date. That's my only hesitation here.
    Mr. Ose. Sure.
    Ms. Garvey. And, as usual, I would----
    Mr. Horn. If you want to do it, fine. But I think it ought 
to be done this week that we're serious about it.
    Ms. Garvey. All right. And we will certainly communicate 
with State and make sure we're staying within the bounds of 
what you have outlined, as well.
    Mr. Horn. I asked that question because we have 
jurisdiction over the Freedom of Information Act, and we're 
very conscious of this.
    Ms. Garvey. I understand.
    Mr. Horn. And so we don't like things hidden in 
bureaucratic barns, shall we say.
    Ms. Garvey. And I think that's why we were so eager to get 
that resolution with our legal folks.
    Mr. Horn. Good. Well, we appreciate you doing that last 
night, because this could have gotten very explosive if you 
hadn't taken that decision to get off that official use 
business. So thank you for doing that and getting it done.
    Ms. Garvey. Thank you.
    Mr. Ose. Thank you, Mr. Chairman----
    Mr. Horn. People have a right to know.
    Mr. Ose [continuing]. For your clarifying.
    If there's anything I can do to help, I'm happy to do that.
    Mr. Horn. Well, thanks for the question. I think it is a 
very good one.
    Mr. Ose. I have two other questions, if I could.
    In terms of the actual turnover on the clock on December 
31st, is it Greenwich Mean Time that we need to be concerned 
with, or is it local time that is affecting pilots in the air? 
I mean, I'm trying to figure out, in terms of the software, 
which time is it that we are focused on in terms of the actual 
tick-over?
    Ms. Garvey. It is Greenwich Mean Time, which is 7 Eastern 
time.
    Mr. Ose. So it's midnight in Greenwich, 7 Eastern time, 4 
Pacific time. That's the key moment, if you will?
    Ms. Garvey. That is correct, Congressman.
    Mr. Ose. And then, finally, Mr. Willemssen, you have 
extensive knowledge about these matters. I'm going to put you 
on the spot here. Would you fly on the evening of December 31st 
or the morning of January 1st?
    Mr. Willemssen. I'll answer that in two ways.
    First of all, I have several years of experience in looking 
particularly at FAA systems and how well they have been 
developed and maintained.
    In my experience, from a systems perspective, safety has 
always been the paramount issue to FAA, so that, to the extent 
that there has been a problem or they expect a problem to 
occur, they will always from my experience and, from a systems 
perspective--take the necessary measures to ensure that safety 
is adequately dealt with.
    Speaking more specifically to Y2K, we have presented some 
issues today in terms of the work not yet being done.
    I'd like to see some additional evidence from the 
standpoint of FAA on how they plan to respond in a detailed 
fashion to some of those issues before I'd be comfortable in 
standing here today and saying unequivocally I'm going to 
embark on a flight at that time.
    Mr. Ose. You think we're making progress, though?
    Mr. Willemssen. There's no doubt that the progress has been 
extremely impressive. I give a lot of the credit to that, to 
the Administrator, and to their program management structure.
    But, as we testified some time ago, the massive nature of 
this job made it almost mission impossible, and that's why the 
progress that has been made is so impressive.
    But I don't think it is time to let up at this point.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Horn. I thank you.
    I now yield to the--what happened to the gentleman from New 
York? They're voting.
    The gentleman, Mr. Baird, from Washington.
    Mr. Baird. No, sir.
    Mr. Horn. Any further questions? The gentlewoman from 
Maryland?
    Mrs. Morella. Thank you, Mr. Chairman.
    A couple of questions.
    First of all, Ms. Garvey, I understand that you were on a 
plane a while ago and there was a delay, so you checked on what 
caused the delay, and the pilot had announced it was a Y2K 
problem. You checked on that and found that that wasn't the 
case at all.
    I use that as an example to ask you if you have a concern 
that there may be too many situations where people use the Y2K 
compliance problem as a cover-up for some other problem. And 
have you taken any steps to make sure that, you know, the 
airlines are not hiding behind that?
    Ms. Garvey. Well, I think the fact that we've had and 
continue to have such direct communication with the airlines 
about where we are--we talked about public disclosure. We've 
been very up front about exactly where we are with Y2K 
compliance and with our testing, and so forth, and so, from my 
perspective, those are the best steps we can take is to keep 
that communication, those lines of communication, open.
    I certainly hope that in the case of my experience that was 
just one unique situation where he just either misunderstood 
what somebody had told him about what the situation was. That 
pilot, in particular, may just have gotten the wrong 
information. So I'm certainly hopeful that that was just a very 
unique situation.
    I think the communication, making sure that they know 
exactly where we are and being very public about what our 
testing schedules are, and so forth, is all that we can 
continue to do.
    Ken, you may----
    Mr. Mead. I think the direct answer to your question is 
yes. Problems masquerading as Y2K problems on January 1st, I 
think, are a matter of concern. In fact, one has already come 
to our attention--not in the airline or travel area, but 
involving pipelines. An individual acquired some stock options 
in anticipation of being able to cash in those options shortly 
after January 1st at a high price. At the same time, there were 
allegedly some plans afoot to plant a bomb on the pipeline on 
January 1st. The disruption of the pipeline flow would have 
been attributed to a Y2K computer problem.
    That was a wake-up call.
    Mrs. Morella. Yes. So we have to be vigilant, do all we can 
to make sure we inform the public.
    Ms. Garvey. And I think, Congresswoman, that day one of our 
great challenges--we talked about this yesterday in a table top 
exercise we did with DOT. We're going to be getting a lot of 
information in, and, even, for example, with airports, there 
may be situations or there may be problems and they may, as Mr. 
Mead said, not be Y2K compliant.
    So, as we get the information in, sorting out what's the 
cause of it is going to be very, very challenging, and I'm not 
sure we've yet, you know, figured out the answer to how we are 
going to sort everything out.
    We had a map, for example, up on the screen yesterday, and 
it showed all the airports, and it said you could end up having 
a disruption there and it could show up as red, but, once you 
get into it, you find out, in fact, it's not related to Y2K but 
it's something entirely different. And that's going to be a 
great challenge getting that correct information and then 
letting the public know the exact information.
    Mrs. Morella. I couldn't agree with you more, and this is 
September 9, 1999, so I guess we're going to be Y2K OK on 
September 9, 1999. I guess you would agree. I'd like you to 
answer it in a moment, but I do have another question before my 
time is up.
    In March, before our subcommittees, Mr. Mead recommended 
that the FAA actually should take a more active role to certify 
that the entire industry, particularly small carriers and 
suppliers, are compliant, rather than relying on their self-
reported data.
    I just wondered, Ms. Garvey, why FAA decided not to embark 
on that recommendation of the Inspector General.
    Ms. Garvey. We had an awful lot of discussion on that. As 
Mr. Mead suggested, we've really gone--we've really agreed with 
just about every recommendation, and came pretty close on this 
one with the intensive surveys.
    We're working within the regulatory framework that we have. 
We also, frankly, are working with--we know what our resources 
are and what we can deliver on and what we can promise. We felt 
that getting the assessments and then following up with the 
individual site visits--we've got over 3,000 inspectors now who 
are all keyed in on working those remaining folks that we 
haven't heard from.
    Mr. Mead asked again today that we take another look at 
this, and, of course, we will, but I think we are making very 
good progress and I think we still want to stay within our 
regulatory charge.
    Mrs. Morella. Final point, Mr. Mead, you want to emphasize 
or----
    Mr. Mead. Sure. I think that the current situation 
reinforces the strength of the recommendation that the airlines 
simply be told, ``By October 15th we want a certification in 
hand that you're Y2K compliant.''
    There are 2,000 air carriers, and they're small--
admittedly, very small--that have chosen not to respond. Now, 
are we just going to leave that hanging? People will be flying 
on these carriers around about January 1st.
    I don't think it is a Draconian step to ask an airline to 
certify. I make certification to the Department of Motor 
Vehicles and no one loses a lot of sleep over that. And I think 
it is a reasonable expectation that air carriers who have 
people's lives in their hands could make a certification to FAA 
like that.
    Maybe they could have a caveat: ``We've done our best, and, 
to the best of our knowledge, everything is compliant.'' I 
understand that they may need some wiggle room. But I think it 
would help clean up this universe of 2,000 out there that 
hasn't responded.
    Mrs. Morella. Sounds very logical to me.
    Ms. Garvey, would you reconsider?
    Ms. Garvey. We will, Congresswoman.
    Mrs. Morella. OK. Good. Thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. Well, besides reconsider, are you getting close 
to saying that's the right approach?
    Ms. Garvey. Well, first of all, every time Mr. Mead raises 
an issue I take it very seriously, and he is always very 
compelling.
    I want to also be very careful that we are promising what 
we can deliver. I think we are very close to what he has 
already described--that is, with a caveat. I mean, I think the 
survey that we put out, it pretty much comes to the came 
conclusion.
    I'll take another look whether we can be even tougher on it 
or put a specific date.
    We have, with airports, done that, and we'll take another 
look at it.
    Mr. Horn. I would hope in this country that if any of them 
are watching some of this hearing, they'd fax the answer to you 
right now.
    I find when people have to put their name on a document, 
that helps.
    Ms. Garvey. Absolutely. And, again, I get back to the 
public disclosure. I think having just--``Here are the airlines 
that have not yet responded.'' You don't even have to say 
anything more than that. That is a terrific leverage. That is 
the kind of information that will be on the Web.
    Mr. Horn. Good. We'll work something out with you.
    I now yield to the gentleman from New York, Mr. Weiner.
    Mr. Weiner. Thank you, Mr. Chairman.
    Ms. Garvey, you said that you had provided to the 
subcommittee and to the joint committee a list of the 53 
nations that hadn't complied with the ICAO survey. Could 
someone, a member of your staff, point to where that is, 
because I have the document you provided to the committees in 
front of me and I don't see it anywhere.
    Ms. Garvey. Let me double check with our folks, but I 
believe that part of what we gave the committee last night was 
the information that we had to date, and that is, again, a 
little bit dated, which includes the surveys from the 
individual----
    Mr. Weiner. I don't see any reference to ICAO nations that 
have not responded.
    Ms. Garvey. I'm sorry. I think we would be--the way the 
book is laid out, it gives a list of all the countries and 
which ones have responded, but we can extract which ones have 
not and provide that in--sort of on a separate page.
    Mr. Weiner. Do you have that with you, Ms. Garvey?
    Ms. Garvey. I don't, but I can get that for you.
    Mr. Weiner. Do you have that with you, Mr. Mead?
    Mr. Mead. I have regions, specific regions of the world 
that did not respond. The answer is no, I do not have by 
specific country. I do have by region.
    Mr. Weiner. Mr. Mead, you, in response to another 
question--I think it was by my colleague, Mr. Turner--said that 
there was some nations--I thought you said some nations on that 
list that fell into the category of vacation destinations. Can 
you give some examples?
    Mr. Mead. I was thinking of the Caribbean, and some places 
in South America.
    Mr. Weiner. Now, you were referring to regions or nations 
when you made that answer?
    Mr. Mead. I'm referring to regions. I am not personally 
able to specify the countries that have not responded.
    Mr. Weiner. I see.
    Ms. Garvey, now, this survey is done, an airport-to-airport 
survey? Is it one airport by one airport? Is it each airline 
gets a survey? Is it--how is it done that it's broken down by 
region in the documents that you have? Is it an interview by 
regions? Explain how that's done.
    Ms. Garvey. The work was done by ICAO, was done by the 
international organization. We were part of that team. It is 
done both by regions and also talks about--if you look at--I'm 
not sure that this is included in the report, but we can 
certainly get it--the supporting documentation that would break 
it down by the airports and by the airlines.
    What we have talked about putting up on the Web with State 
at the end of September is a summary of the country, because 
there's going to be so much information, so we're talking about 
a summary of the country.
    Obviously, if somebody has got a particular concern, I 
would think, about a particular airline or a particular airport 
in a country, that we could provide that subsequently to that--
--
    Mr. Weiner. But in response to a previous question you 
mentioned to the chairman that the information had been 
provided to the committees and the chairman then I think very 
appropriately suggested that we might beat you to the punch and 
release it sooner, because many of us don't believe, as Mr. Ose 
said earlier, that waiting to the end of the month, waiting for 
the State Department to shake hands with the FAA--can you 
provide that information in a more timely manner to members of 
the committee?
    Ms. Garvey. We can provide specifically which countries 
have not yet responded, and we can do that. We'll do that--I 
hope I'm not over-promising by saying today we can get that 
information out.
    Mr. Weiner. Great.
    Ms. Garvey. What I would like to do, if I could----
    Mr. Weiner. Sure.
    Ms. Garvey [continuing]. Is perhaps update it to give you 
the best information that we have. If the number has moved from 
53 to 45, I'd like to give you that.
    Mr. Weiner. Well, you know, I have a theory about this that 
you might not share. If a nation or an airport or an airline is 
unwilling to make a June 30, 1999, deadline to even respond to 
a survey about what they had to do to come into compliance by 
December 1999, I'd be very surprised if these truants then 
began sprinting to get you information.
    What it probably speaks to is they're not taking the 
problem very seriously.
    And, echoing what Mr. Ose and what the chairman and what 
Mr. Turner said earlier, we don't have a great deal of time. 
Putting aside the travel time, they don't have a great deal of 
time, if I understand the time line for doing some of these 
tests and doing some of the research necessary.
    I don't know who we are protecting at this point and what 
leverage we're trying to protect by not releasing it, frankly, 
on June 30th. That's probably the way to do it. If we're going 
to be serious about a deadline, that should be it.
    But if you can provide that information by the end of the 
day, I would certainly appreciate seeing that, because I have a 
fantasy about some day taking a vacation, as well.
    Let me just ask you--I'm not sure if it is Mr. Willemssen 
who might want to answer this question--putting aside the 
abstract notion of Y2K problems, is there any scenario whereby 
a plane falls out of the sky on January 1st, 2000, or is the 
worst-case scenario delays and inconveniences? Is there any 
scenario where there is catastrophe?
    Mr. Willemssen. We haven't been able to identify any 
evidence at this point that there would be any scenario of a 
plane falling out of the sky.
    Mr. Weiner. So I think that it would be helpful for 
consumers and Members of Congress to keep in mind that what 
we're talking about is, frankly, having delays on the ground, 
canceled flights, and the like--in other words, like a typical 
day at LaGuardia.
    We have to be careful that we don't reach a level of 
hysteria surrounding this issue that people begin, you know, 
hunkering down, driving to Sweden rather than taking a plane, 
and things like that.
    I think that this committee does a great service to the 
Nation by keeping in mind the parameters of this potential 
problem, but also using the leverage that we have in making 
sure that people are aware of what nations and what airlines 
are not complying with basic requests.
    I yield back the balance of my time.
    Mr. Horn. I thank the gentleman, and I now recognize the 
gentleman from Washington, Mr. Baird, for 6 minutes.
    Mr. Baird. Thank you, Mr. Chairman.
    Ms. Garvey, I spoke with the members of the aviation 
industry a while back, and they expressed some concern about 
some changes that preceded the Y2K issue as FAA was updating 
installations and expanded--I believe it is called ``miles in 
trail distance.''
    Ms. Garvey. Yes.
    Mr. Baird. One of their concerns was that they felt there 
had not been adequate consultation about that and that the 
miles and trail distance had remained at an extended length, 
and that was, in fact, responsible for a great number of delays 
that we currently experience, many of us who fly a lot.
    Help us understand how FAA has worked with the aviation 
companies, themselves, with the airlines, on this issue of Y2K, 
and can we expect to see greater cooperation and perhaps a 
reduction in the miles in trail distance at some time in the 
future?
    Ms. Garvey. Congressman, in fact, we already have. And 
you're absolutely right. The miles in trail was instituted as a 
result of some of the transition to new technology. In 
particular, it was a transition to DSR. And we wanted to keep a 
very, very great separation as we were transitioning to new 
equipment.
    The airlines, I think appropriately, raised some questions 
about whether we were, A, too conservative and, B, whether or 
not we had kept the miles in trail restrictions in place too 
long.
    Mr. Baird. Yes.
    Ms. Garvey. We had some very good discussions with them 
over the last 2 weeks, and we have seen a reduction of miles in 
trails.
    I want to make it very clear, though, again, never at the 
expense of safety. That is our paramount concern, and I think 
it is to the airlines, as well.
    So, while we've reduced the miles in trail restrictions, we 
have still always stayed well above the minimum standards, the 
minimum safety standards.
    And we're talking with the airlines every morning and every 
evening from our command center. We're getting immediate real 
time feedback about how the miles in trail restriction is 
working, as well as how our ground stock delay program is 
working, as well. Both of those are tools that we can use to 
manage the air space system safely and efficiently, and that's 
really our focus.
    Mr. Baird. I hope you'll continue that, because I know it 
is a critical issue----
    Ms. Garvey. Thank you.
    Mr. Baird [continuing]. And I can imagine it recurring with 
the Y2K concerns.
    Ms. Garvey. Yes. Thank you, sir.
    Mr. Baird. Thank you, Mr. Chairman.
    Mr. Horn. I thank you very much, and I want to thank all of 
our witnesses, and I want to thank the staff. And let me just 
note, for the Subcommittee on Government Management, 
Information, and Technology, we have Russell George standing 
over there by the door, staff director and chief counsel; 
behind me with particular emphasis on this hearing and this 
subject is the senior policy director, Matt Ryan; Bonnie Heald, 
director of communications and professional staff member; Chip 
Ahlswede is the clerk; and Mr. Caceres is an intern, and we're 
glad to have that free help.
    On the minority staff, we have Jean Gosa, staff assistant, 
and Trey Henderson, minority counsel.
    And for the Technology Subcommittee we have Jeff Grove, 
staff director; Ben Wu, counsel; Joe Sullivan, clerk; Mike 
Quear, minority professional staff; and Marty Ralston, minority 
staff assistant.
    And our court reporter today is Mel Jones.
    We thank you all, and with that this is adjourned.
    [Whereupon, at 11:45 a.m., the subcommittees were 
adjourned, to reconvene at the call of their respective 
Chairs.]

                                   - 

</pre></body></html>
